          Review of RRB Compliance with Federal Laws and Regulations
          on Competitive Sourcing, Report No. 05-02, December 6, 2004

                                    INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) compliance with Federal laws and regulations on
competitive sourcing.

BACKGROUND

The RRB’s mission is to administer retirement-survivor and unemployment-sickness
insurance benefit programs for railroad workers and their families. During fiscal year
(FY) 2003, the RRB paid approximately $9 billion in railroad retirement, survivor, and
unemployment and sickness benefits to annuitants and railroad employees. The RRB
employs a staff of approximately 1,050 in its Chicago, Illinois headquarters and 53
district offices located in many of the nation’s major cities.

The use of competitive sourcing is an important economic and strategic decision that
involves determining whether to perform services in-house or obtain services through
commercial contracts. The Federal Activities Inventory Reform (FAIR) Act of 1998,
Public Law 105-270, directs Federal agencies to annually issue an inventory of all
commercial activities performed by employees. A commercial activity is any activity
providing a product or service obtainable from a commercial source. Commercial
activities would include services such as information gathering, building security, mail
operations, housekeeping, warehouse operations, and routine electrical or mechanical
services.

In May 2003, the Office of Management and Budget (OMB) revised Circular A-76,
Performance of Commercial Activities, which implements the statutory requirements of
the FAIR Act. The Circular requires that agencies include an inventory of inherently
governmental activities in the FAIR Act report. An inherently governmental function is
defined as one that is so closely related to the public interest as to mandate
performance by Federal employees. These activities normally fall into two categories:
(1) the discretionary exercise of Governmental authority, such as criminal investigations,
regulation of industry and commerce, and management and direction of the military; and
(2) monetary transactions and entitlements, such as tax collections and revenue
disbursements, the control of Treasury accounts and the money supply, and the
administration of public trusts.

OMB Circular A-76 establishes procedures for determining whether commercial
activities should be performed under contract with outside commercial sources or in-
house using governmental facilities and employees. OMB Circular A-76 requires all
Federal agencies to designate a central contact office and management executive with
responsibility for implementing the Circular within the agency. The RRB has designated
the Director of Administration as the agency’s Competitive Sourcing Official. The
Director oversees agency-wide efforts for OMB Circular A-76 compliance as well as
preparation of the annual FAIR Act inventory report.

In the spring of 2001, the Administration announced its intention to open the commercial
activities performed by the government to the dynamics of competition between the
public and private sectors. Soon thereafter, the President’s Management Agenda
designated competitive sourcing as one of five Government-wide initiatives.

The RRB’s 2003-2008 strategic plan contains a goal that states that the agency will
serve as “responsible stewards for our customers’ trust funds and agency resources.”
Agency management has declared a specific commitment to continually seek ways to
increase competitive sourcing opportunities to partially achieve this strategic goal.

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this review was to determine if the RRB’s competitive sourcing policy
complies with the FAIR Act and OMB Circular A-76. The scope of our review included
FYs 2003 and 2004. To perform this review, the OIG:

   •	 Reviewed prior OIG reviews and other Federal government reports and articles
      on competitive sourcing;
   • Reviewed relevant laws, regulations, and guidance;
   •	 Evaluated the RRB’s 2003 and 2004 FAIR Act inventory reports and the process
      used in the compilation of data;
   •	 Assessed RRB procedures for implementing competitive sourcing and
      opportunities for RRB improvement based on comparisons with other Federal
      agencies; and
   • Conducted meetings with agency officials.

This audit was conducted in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at the RRB
headquarters from July through September 2004.
                                RESULTS OF REVIEW 


Our review indicates that, while the RRB is generally in compliance with the FAIR Act
and OMB Circular A-76, improvements are needed to ensure the accuracy of key FAIR
Act report data and to improve the presentation and information disclosure of agency
progress on competitive sourcing. The agency also needs to increase its efforts to
successfully implement competitive sourcing under OMB Circular A-76 guidelines.

The details of our findings and recommendations follow.

AGENCY SHOULD ENSURE ACCURACY OF FAIR ACT REPORT AND IMPROVE
PRESENTATION

The RRB did not fully evaluate the commercial positions included on prior year
inventories for the 2004 inventory compilation. Instead of consulting with respective
bureaus, the Office of Administration updated the prior year information by merely
comparing full-time equivalent (FTE) employees to the agency’s position index, and
adjusted for significant changes of which they were aware.

The FAIR Act requires the RRB to complete an annual inventory of commercial and
inherently governmental activities. Agencies are required to make their list available to
the public after OMB approval. Interested outside parties have the option of challenging
the omission or inclusion of any particular activity. In the past, the Office of
Administration sent notices to bureau heads informing them of their need to compile
data for the current FAIR Act inventory. This notice contained the bureau’s previous
year listing, instructions for analysis of job functions, links to OMB guidance, a RRB
contact person for questions, and a deadline for completing the analysis. Bureaus were
requested to review the positions and note any relevant changes.

Consulting with respective bureaus helps to improve the accuracy of the inventory and
ensure the consistent treatment of activities among bureaus. The agency has not fully
documented this evaluation approach; and in 2004, a new Office of Administration
official was delegated responsibility for completing the report, but did not use this
approach. The official assigned responsibility believed that full evaluation was not
necessary because the staffing and positions of the agency did not significantly change
over the last year. In addition, the official had not obtained sufficient training on his new
duties. Without an annual review of the inventory by officials in the respective bureaus,
there is a risk that some FTE counts and classifications in the FAIR Act report are
inaccurate.

In addition, the RRB website’s presentation and disclosure of FAIR Act report
information is not as useful as it could be. The website section that contains the
inventory provides only the spreadsheet of the current year’s activities and contacts, but
no detailed background information on the process used or the procedures for outside
parties to challenge and appeal the inventory statistics. A search on the website using
the terms “A-76” or “FAIR Act” did not yield an accessible link to the inventory report.

Agencies are required to publicize their list of commercial and governmental activities to
the public after the OMB approves the agency-submitted inventory reports. Interested
outside parties have the option of challenging the omission or inclusion of any particular
activity. Many Federal agencies use their website to inform the public of their current
and prior year inventories, contacts, and procedures for appeals. Providing this detailed
information facilitates the public’s understanding of the process for determining
commercial activities and shows a commitment to the government-wide competitive
sourcing initiative.

The RRB has not made it a priority to make its website section more informative and
accessible. Because of the lack of a truly informative website, interested parties may
overlook or not be able to locate the information, and may not know their rights and the
procedure for challenges or appeals.

Recommendations

The OIG recommends that the Office of Administration:

   1. 	 Fully document procedures and consult with respective bureaus in evaluating
        positions for the FAIR Act inventorying process.

   2. 	 Provide sufficient training to the personnel responsible for completing the FAIR
        Act report.

   3. 	 Revise the RRB website to provide more useful and detailed information on the
        FAIR Act inventory process. At the minimum, this should include adding “A-76”
        and “FAIR Act” to the report as well as a notice of procedures for appeals and
        challenges.

Management’s Response

The Office of Administration concurs with all three recommendations and will complete
corrective action for all three by June 1, 2005. The management response is included
as Appendix I.


INCREASED EFFORT NEEDED TO IMPLEMENT COMPETITIVE SOURCING

The RRB has not performed any OMB Circular A-76 public-private job competitions for
commercial activities since 1977.

The RRB’s 2004 Performance Plan included an objective for completing public-private
or direct conversion competitions on not less than 5% of the FTEs listed on the FAIR
Act inventory. The agency’s FY 2006 budget request to OMB asked for funds to
implement $12.8 million in information technology improvements required to meet
performance goals, and the agency has asserted that this extensive effort supports the
President’s competitive sourcing initiative.

Once agencies identify their commercial activities, OMB encourages agencies to
conduct public-private job competitions using Circular A-76 guidelines. Job
competitions determine if the internal agency unit is the most efficient organization, or
whether an external contract can deliver the same commercial service at a lower price.
These public-private assessments can save the government money. During FY 2003,
Federal agencies completed 662 competitive assessments at a projected net savings of
$1.1 billion, to be achieved over the next three to five years. For many Federal
agencies, private contractors coordinate and oversee the daily operational control and
support of desktop computers, servers, applications, and networks. These agencies
believe that this outsourcing is beneficial because of the difficulty in hiring and retaining
information technology personnel and keeping up with evolving hardware and software
technologies.

Annually, the RRB has been committed to upgrading at least 25% of its personal
computers, 33% of network printers, and a substantial number of servers, personal
printers, and other computing equipment to keep up with evolving technology. The
agency also must upgrade computer software on a continual basis. These
commitments require not just financial resources, but also skilled information technology
staff that have traditionally been difficult to hire and retain.

In the past, the agency has competitively sourced many projects and services including
janitorial services, building security, and some building maintenance functions. The
Competitive Sourcing Official also has determined that some activities, while available
from commercial firms, are engaged in core mission activities that must remain in-house
because employees must have detailed, specific technical knowledge of RRB programs
and systems, and must possess the most critical core knowledge of the agency’s
proprietary systems.

According to the RRB’s FAIR Act Inventory for FY 2004, 83% of the agency’s
commercial activities are for data processing services and systems design,
development, and programming services. The RRB may be able to achieve financial
savings from public-private job competitions of information technology services. The
$12.8 million information technology enhancement initiative offers the agency
opportunities to seek competitive sourcing solutions involving technology staffing,
infrastructure, and services. Since many of the most knowledgeable and experienced
employees will become eligible for retirement during the next few years, the RRB will be
challenged to ensure that it has sufficient staff with the necessary skills and experience
to complete the extensive information technology upgrades.
Recommendation

The OIG recommends that the Office of Administration:

   4. 	 Conduct a feasibility study to determine if the agency should implement public-
        private competitions of commercial information technology services.

Management’s Response

The Office of Administration advised that the Acting Chief Information Officer, at the
direction of the Board, has already formed a group to conduct a feasibility study of this
area. The Acting Chief Information Officer stated that this committee, which will
primarily review outsourcing options for the data center, will complete their study and
issue a report by September 1, 2005.

The management response from the Office of Administration and the Acting Chief
Information Officer is included as Appendix I and II, respectively.
